         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       EPA Can Recover
       More Federal Superfund Money
       Report No. 08-P-0116


       March 26, 2008     

Report Contributors:              Carolyn Copper
                                  Steve Hanna
                                  Chad Kincheloe
                                  Jayne Lilienfeld-Jones




Abbreviations

EPA             U.S. Environmental Protection Agency
NPL             National Priority List
OIG             Office of Inspector General
PRP             Potentially Responsible Party
QA              Quality Assurance
RCRA            Resource Conservation and Recovery Act
RPM             Remedial Project Manager
SCORPIOS        Superfund Cost Recovery Package Imaging and On-Line System
TRI             Toxic Release Inventory
                         U.S. Environmental Protection Agency                                                  08-P-0116 

                                                                                                           March 26, 2008

                         Office of Inspector General


                         At a Glance

                                                                               Catalyst for Improving the Environment


Why We Did This Review                  EPA Can Recover
We evaluated the U.S. Environ-
                                        More Federal Superfund Money
mental Protection Agency’s
(EPA’s) Superfund cost recovery          What We Found
and billing practices at a sample
of National Priority List (NPL)         We found that EPA regions have recovered $165 million of $294 million
sites. The objectives were to           (56 percent) of the total Superfund costs from the sites we reviewed.
determine: (1) What were the            Potentially responsible parties (PRPs) at these sites have generally paid what
total Superfund expenditures at         they have been billed. However, EPA has not recovered as much as
NPL sites where a viable business       $129 million (44 percent) and has determined it will not attempt to recover
is the primary responsible party,       between $30 million and $90 million of this amount. This indicates a
and have those expenditures been        potentially significant breakdown in controls over Superfund cost recovery.
recovered? (2) Are EPA regional
offices effectively billing site        Regions generally use similar billing processes to recover their Superfund costs
costs? (3) Were incorrect costs         from private parties, but exceptions exist. As a result of this evaluation, two
corrected and billed to the             EPA regions discovered they should have billed two sites approximately
appropriate site?                       $1.8 million. These costs are now being billed.

Background                              EPA regions have no formal process or information system controls to ensure
                                        staff correct costs assigned to the wrong site. Because of this lack of controls,
The Comprehensive Environ-              we could not determine whether all incorrect costs were corrected and billed to
mental Response, Compensation,          the appropriate site. One EPA region did not include approximately $8 million
and Liability Act (CERCLA, or           in a negotiated settlement for a site because the costs were incorrectly assigned
Superfund) authorizes the Federal       to another site.
Government, States, and private
parties to recover Superfund            EPA has limited cost recovery performance measures and does not track the
cleanup expenses (costs) from           efficiency of cost recovery. Recommendations in this report will assist EPA in
potentially responsible parties.        implementing improved controls for recovering Superfund costs.
When EPA conducts Superfund
cleanup and oversight work, it           What We Recommend
takes actions to recover those
costs from responsible parties.         We recommend that EPA (1) enhance cost recovery guidance for all the
                                        regions, (2) implement mechanisms to support calculating how efficiently it is
For further information, contact        recovering site costs and tracking corrections, and (3) implement performance
our Office of Congressional and
Public Liaison at (202) 566-2391.
                                        measures to track how efficiently it is recovering these costs. EPA concurred
                                        with our recommendations and has proposed actions to address them.
To view the full report, click on the
following link:
www.epa.gov/oig/reports/2008/
20080326-08-P-0116.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         March 26, 2008

MEMORANDUM

SUBJECT:               EPA Can Recover More Federal Superfund Money
                       Report No. 08-P-0116


FROM:                  Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:                    Lyons Gray
                       Chief Financial Officer
                       Office of the Chief Financial Officer

                       Granta Nakayama
                       Assistant Administrator
                       Office of Enforcement and Compliance Assurance


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. The OIG
responded to the Agency’s draft report comments by making changes to the report and providing
responses to EPA, as appropriate. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers in accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $478,784.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response should include a corrective action plan for agreed
upon actions, including milestone dates. We have no objections to the further release of this
report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at (202) 566-0829 or
copper.carolyn@epa.gov; or Steve Hanna, Project Manager, at (415) 947-4527 or
hanna.steve@epa.gov.
                            EPA Can Recover More Federal Superfund Money



                                 Table of Contents 


Chapters
  1    Introduction ...........................................................................................................      1


               Purpose ..........................................................................................................    1

               Background ....................................................................................................       1

               Noteworthy Achievements..............................................................................                 2

               Scope and Methodology.................................................................................                2

               Prior Evaluation Coverage .............................................................................               4


  2    EPA Has Recovered About Half Its Superfund Costs .......................................                                      5


               Regions Generally Use Similar Billing Practices, But Exceptions
                    Impede Some Cost Recovery................................................................                        5

               Regions Provide Multiple Reasons for Incomplete Cost Recovery ................                                        6

               SCORPIOS Does Not Track Cost Recovery Efficiency
                    or Corrections ........................................................................................          8

               Cost Recovery Performance Measures Are Limited ......................................                                 9

               Conclusions ....................................................................................................     10         

               Recommendations .........................................................................................            11         

               Agency Comments and OIG Evaluation.........................................................                          11 


  Status of Recommendations and Potential Monetary Benefits.................................                                        12     




Appendices
  A    Agency Response to Draft Report and OIG Evaluation.....................................                                      13     


  B    Distribution ............................................................................................................    22     

                                                  Chapter 1
                                                   Introduction

Purpose
                     The purpose of this evaluation was to examine issues related to recovering
                     Superfund expenditures from the potentially responsible parties (PRPs) at a
                     sample of Superfund national priority list (NPL) sites. We addressed the
                     following questions:

                     1.	 What were the total Superfund expenditures at NPL sites where a viable
                         business is the primary responsible party, and have those expenditures been
                         recovered?
                     2.	 Are EPA regional offices effectively using the Superfund Cost Recovery
                         Package Imaging and On-Line System (SCORPIOS) to bill site costs?
                     3.	 Were incorrectly allocated1 site costs corrected and billed to the appropriate
                         site?

Background
                     The Comprehensive Environmental Response, Compensation, and Liability Act
                     (CERCLA, or Superfund) authorizes the Federal Government, States, and private
                     parties to recover Superfund cleanup expenses (costs) from responsible parties.
                     When the U.S. Environmental Protection Agency (EPA) conducts Superfund
                     cleanup and oversight work, it takes actions to recover those costs from
                     responsible parties.

                     As part of its Superfund cost recovery process, EPA uses an automated system
                     known as the Superfund Cost Recovery Package Imaging and On-Line System
                     (SCORPIOS) to calculate Superfund site costs. SCORPIOS is a repository of data
                     from the EPA financial data warehouse and includes both indirect and direct
                     Superfund costs. Direct Superfund costs are those that can be associated with
                     activities at a specific site. Indirect Superfund costs reflect costs for general,
                     administrative, and Superfund programmatic overhead costs not linked to specific
                     sites.




1
    “Incorrectly allocated costs” refers to costs for a site incorrectly attributed to another site.


                                                                1

Noteworthy Achievements
         EPA’s noteworthy cost recovery achievements include the following:

         •	   In 2000, to bring the Agency into compliance with cost accounting standards
              issued by the Federal Accounting Standards Advisory Board, EPA revised its
              Superfund indirect cost rate methodology for all fiscal years after 1989.

         •	   The Agency recently updated its Superfund cost recovery billing policies,
              Superfund Accounts Receivable and Billings, Chapter 14 of the Resources
              Management Directive Systems 2550D, to reflect the statutory requirements
              needed to properly manage delinquent Superfund bills.

         •	   The Agency developed and issued the following policy and guidance
              documents related to Superfund account receivable and debts:
              -	 Superfund Accounts Receivable: Collection Actions for Delinquent
                 Accounts, August 20, 2002.
              -	 Compromise of, and Termination of Collection Activity on, Post-
                 Settlement and Post Judgment Superfund Debts, October 2, 2001.
              -	 Amendment to the October 2, 2001, memorandum entitled Compromise
                 of, and Termination of Collection Activity on, Post-Settlement and Post
                 Judgment Superfund Debts, November 25, 2002.

         	 The Agency developed new overdue accounts receivable status codes to help
            the Agency better track and manage the status of its outstanding accounts
            receivable.

         •	   The Agency participates in quarterly meetings for all offices involved in the
              Superfund accounts receivable and debts management process: Cincinnati
              Finance Center, Office of Financial Management, the Department of Justice,
              Regional Program Offices, Office of Regional Counsel, and the Office of Site
              Remediation Enforcement.

Scope and Methodology
         We completed our work from January through August 2007, in accordance with
         generally accepted government auditing standards. Those standards require that
         we plan and perform the evaluation to obtain sufficient, appropriate evidence to
         provide a reasonable basis for our findings and conclusions based on our
         objectives. We believe the evidence obtained provides a reasonable basis for our
         findings and conclusions based on our objectives. We assessed internal controls
         over the cost recovery process for NPL Superfund sites.

         We reviewed 58 NPL sites associated with viable businesses that had recently
         filed reports for the Toxics Release Inventory (TRI). Businesses that meet certain
         criteria are required to submit annual TRI reports (TRI filing) to EPA and States


                                           2

detailing the volume of specific chemicals they release to the air, water, and land.

We selected these 58 sites because their recent history of TRI filing suggested that 

a viable business was operating at those sites. We determined that viable

businesses were associated with the 58 sites, and that the businesses are 

responsible parties for the Superfund contamination at the sites. Where EPA had 

spent Superfund money at these sites, we determined if EPA had recovered, or 

was attempting to recover, its expenses from those responsible parties. The 58 

sites were in Regions 2 through 10. No Region 1 sites met the selection criteria.


To evaluate the recovery of Superfund expenditures at these sites (question 1), we 

obtained the total site-specific Superfund costs and cost recovery data for each 

site, we made information requests to each region, and we interviewed 

knowledgeable staff in each region and EPA headquarters. 


To determine total site-specific costs, and EPA’s recovered costs (question 1), we 

accessed the regions’ SCORPIOS database and extracted data from two reports -- 

the Superfund Total Cost Report and the Site Collection Report. We provided 

each region totals of their respective Total Cost and Site Collection reports for all 

years. We asked questions about their billing and cost recovery process, including 

how they used SCORPIOS in the billing process (question 2). We asked specific 

questions related to each site, including questions about unrecovered costs and 

evidence for billing activity. We relied on the knowledge of site staff in the 

selected regions to provide explanations for unrecovered costs or lack of evidence 

of billing activity (question 3). We did not review regional site files, as we 

requested and received site-specific information from knowledgeable staff in each 

region.


For the purposes of this report, we use the following definitions: 

Total costs – The total of all costs in the SCORPIOS Total Cost Report, including 

direct and indirect costs. 

Recovered costs – The cash receipts total from the SCORPIOS Site Collection 

Report. 

Unrecovered costs – The difference between total costs and recovered costs.

Incomplete cost recovery – Recovered costs less than total costs. 

Cost recovery efficiency – Recovered costs as a percentage of total costs. 

Billing – The process used by EPA to recover all costs identified as total costs in 

SCORPIOS reports, including settlement agreements and oversight costs. 


Limitations

The following limitations prevent a complete reconstruction of all site costs using
SCORPIOS:

•	 Because of revisions to the Superfund indirect rate methodology, applying the
   revised indirect rates for fiscal years between 1989 and 2001 may overstate or
   understate the indirect cost portion for those years.



                                  3

          •	 Depending upon when EPA issues bills, a provisional (i.e., draft) or final
             indirect rate is applied to the total direct costs. Because provisional and final
             rates may be different, if EPA calculates sites costs using a provisional rate,
             future attempts to reconstruct past costs may not show the same results.
             SCORPIOS maintains only one indirect rate per region for each year. After
             EPA finalizes the final rate, SCORPIOS overwrites the provisional rate with
             the final one.
          •	 Because cash receipts prior to 1989 may not be stored in SCORPIOS, regions’
             costs recovered may be understated.

Prior Evaluation Coverage
          The following OIG reports addressed regional Superfund cost recovery issues.
          Findings from these reports included erroneous bills and delays in issuing the
          bills.

          •	 Region 2's Billing of Superfund Oversight Costs, Report number E1SFF8-02
             0007-8100206, August 13, 1998.
          •	 Report of Audit on Region 3's Billing of Superfund Oversight Costs, Report
             number E5FFL7-03-0008-7100292, September 22, 1997.
          •	 Audit of Region 9's Controls Over Superfund Oversight Cost Billings, Report
             number E1SFF8-09-0022-8100259, September 30, 1998.




                                           4

                                 Chapter 2
 EPA Has Recovered About Half Its Superfund Costs
          EPA regions have recovered $165 million of $294 million (56 percent) of the total
          Superfund costs, from the sites we reviewed. PRPs at these sites have generally
          paid what they have been billed. However, EPA has not recovered as much as
          $129 million (44 percent) and has determined it will not attempt to recover
          between $30 million and $90 million of this amount. This indicates a potentially
          significant breakdown in controlling Superfund cost recovery.

          Regions have recovered 95 percent or more of their site costs at 11 of the 58 sites
          we reviewed. The potentially responsible parties (PRPs) at these sites have
          generally paid the amount billed. Regions generally use similar billing processes
          to recover their Superfund costs from private parties, but exceptions exist.

Regions Generally Use Similar Billing Practices, But Exceptions
Impede Some Cost Recovery
          The regions included in our review all use a similar process to track and bill
          annual Superfund site costs to private parties. The general steps are to:

          •	 Annually track sites for billing in lists or systems by a designated anniversary
             date.
          •	 Prepare, prior to the billing date, a report using SCORPIOS data (SCORPIOS
             report), summarizing the billable costs.
          •	 Review and verify the costs in the SCORPIOS report, in accordance with
             legal strategies and provisions of the site’s settlement agreement. The Agency
             is required to bill according to terms of the site’s settlement agreement. The
             regional staff involved include the site attorney, the site Remedial Project
             Manager (RPM), and fiscal staff.
          •	 Prepare a bill, after concurrence among the staff reviewing the SCORPIOS
             report, and send it to the PRP.

          Exceptions to the typical billing approach can impede some cost recovery. These
          exceptions include the following.

          Regions do not always bill sites annually

          Regions may not bill some sites annually: (1) the site’s established billing cycle
          may be every 2 years or periodic; (2) EPA has no agreement with the PRP to
          recover oversight costs; (3) the region may not find it cost-effective to bill for a
          small amount.



                                            5

     Under the above conditions, regions told us they sometimes postpone an annual
     detailed review of site costs. When the regional staff finally review the site costs
     to prepare a bill, the memories or availability of the appropriate regional staff may
     impair completely recollecting or documenting all costs.

     One region defines the billing anniversary date differently

     With the exception of one region, all regions we interviewed recognize the
     anniversary date as the effective date of settlement between the EPA and the PRP.
     Regions attempt to bill within 120 days of that date every year. EPA has
     recognized this as a measure of billing timeliness. For example, if the settlement
     agreement defined the effective date as January 1, 2000, the anniversary date of
     the following year would be January 1, 2001. However, one region redefines the
     anniversary date each year as the date of the last bill. This definition creates a 16
     month billing cycle instead of 12 months. Using the initial anniversary date in the
     prior example, January 1, 2000, one would derive the anniversary date the
     following year as May 1, 2001, and that date would increase by up to 4 months
     each year. This potentially reduces the costs recovered per year and provides the
     PRP with an extra interest-free 120 days per billing cycle.

     EPA cannot recover interest until it demands payment in writing

     In some instances, regions do not issue a written demand for payment unless they
     have a cost recovery agreement with the PRP. For example, one region stated it
     might not issue such a demand when it does not expect the PRP to pay. However,
     EPA regulations specify that calculating interest cannot begin until EPA issues a
     written demand for payment. Therefore, until this demand for payment occurs, no
     one is obligated to pay anything; consequently, no interest accrues. Thus, EPA in
     actuality is granting the PRP a zero-interest loan from Superfund, which may
     amount to significant amounts of money. For example, if a site incurs $100,000
     each year for 10 years, the total costs incurred would be $1,000,000. At an
     average interest rate of only 2.5 percent, the simple interest accrued during this
     time exceeds $100,000. The unrecovered costs at some of the sites we examined
     meet or exceed this example.

Regions Provide Multiple Reasons for Incomplete Cost Recovery
     EPA regions have recovered $165 million of $294 million (56 percent) of the total
     Superfund costs, from the sites we reviewed. However, EPA has not recovered as
     much as $129 million (44 percent) and has determined it will not attempt to
     recover between $30 million and $90 million of this amount.

     Two general reasons cited for incomplete cost recovery

     The unrecovered costs do not represent costs that were billed but not paid, as the
     PRPs at these sites have generally paid the amount billed. The remainder of this


                                       6

section documents reasons cited by the regions for incomplete cost recovery.
Regions have billed and recovered 95 percent or more of their site costs at 11 of
the 58 sites we reviewed. Where cost recovery was less complete, regional staff
sometimes provided general explanations. These general explanations did not
indicate specific costs excluded from bills, or reasons why the regions did not bill
these costs. This indicates a potentially significant breakdown in controls over
Superfund cost recovery. Regional staff often cited one or both of the following
reasons for incomplete cost recovery, without supporting documentation.

•	 Limitations in negotiated settlements –EPA does not recover some costs
   because the private party and EPA agreed to exclude certain costs in reaching
   a settlement. Regional staff cited this as a reason for incomplete cost recovery
   at 12 sites.

•	 Total costs overestimated by SCORPIOS – SCORPIOS’ total cost reports for
   past years may not accurately reconstruct the indirect costs. Regional staff
   said that this SCORPIOS limitation is another reason that SCORPIOS reports
   show costs recovered as less than actual costs for seven sites. However,
   regions did not provide actual cost figures to document this reason.

Many specific reasons cited for incomplete cost recovery

Regional staff also had other explanations for incomplete cost recovery. Some of
these reflect a misunderstanding of policies and procedures or a lack of oversight
in the billing process. In several cases, our review caused regions to become
aware of oversight lapses on some site bills.

•	 One region did not include a site on the billing list – While preparing its
   response to our information request for this project, one region discovered that
   one of the sites in question had inadvertently been left off its annual oversight
   billing inventory. SCORPIOS indicates the region last billed the site in 1996,
   and approximately $1.3 million of the total costs have not been recovered.
   Since this discovery, regional staff have added the site to their oversight
   billing inventory and have scheduled the next bill for the site in April 2008.

•	 One region did not bill one site for years due to a misunderstanding on using
   a special account – While preparing its response to our information request for
   this project, one region discovered that it had not billed one site due to a
   misunderstanding about using funds in the site’s special account. The special
   account contained money recovered from the site for past EPA costs.
   Regional staff incorrectly thought the money in the special account was for
   future costs, so they did not bill the site for these costs. The site was last
   billed in 2001, and total costs since 2001 have been approximately $500,000.
   Since this discovery, regional staff have generated a bill to address these costs.




                                  7

    •	 One region may not be able to recover oversight costs from State-lead sites –
       One region has never billed two State-lead sites, and the total SCORPIOS
       costs are approximately $1.4 million. Some of the costs were not billed due to
       a past settlement agreement, and some costs cannot be recovered because the
       statute of limitations has expired. Regional staff stated that they could not bill
       the site for oversight costs, as the PRPs have cost recovery agreements only
       with the States. The region continues to incur oversight costs – slightly over
       $95,000 total for both sites since 2000. EPA has no existing settlement
       agreement to recover oversight costs.

    Other explanations for incomplete cost recovery include the following.

    •	 Superfund remediation work for one site was performed under the Resource
       Conservation and Recovery Act (RCRA) permit. Regional staff incorrectly
       thought oversight costs were recoverable through work performed under the
       RCRA permit, but RCRA has no legal authority to allow recovering oversight
       costs.
    •	 Document imaging costs for one site’s files were attributed as direct costs to
       the site, when these costs should have been included as regional indirect costs.
       The region therefore did not bill for these costs. These document imaging
       costs were not used to calculate the region’s indirect rate(s).
    •	 Costs should have been attributed to a different site.
    •	 Costs represented a litigation risk (in the opinion of EPA attorneys, if the PRP
       challenged the costs in court, EPA would lose).
    •	 Cost invoices were not received or processed in time for billing.
    •	 The statute of limitations for cost recovery has expired.
    •	 Some of the identified costs were RCRA costs and therefore were not
       recoverable.
    •	 A circuit court ruling prevented the recovery of oversight costs from sites in
       two regions for several years. This ruling has recently been reversed, and the
       regions are taking steps to recover these costs.
    •	 Cost recovery negotiations are ongoing.
    •	 Costs will not be billed until the PRP completes its remedial actions under an
       EPA Administrative Order.

SCORPIOS Does Not Track Cost Recovery Efficiency or
Corrections
    While SCORPIOS provides detailed cost information for regions to produce site
    bills, the system design does not include enough information to determine cost
    recovery efficiency or track corrections. These functions are not available because
    SCORPIOS does not allow the input of cost categories that would allow reports to
    calculate efficiency and track corrections. This makes program performance
    difficult to quantify and can impede cost recovery.




                                      8

         Each region uses a similar process to review SCORPIOS site costs and determine
         which costs to include or exclude from the bills. Regions exclude costs for
         various reasons, such as costs incorrectly billed to the site, costs excluded by
         terms of the settlement agreement, costs with inadequate documentation, and
         costs to be billed in the future. Although regions identify site costs as billed or
         excluded with a specific reason, this identification is not associated with the costs
         in SCORPIOS. This lack of data prevents the simple calculation of cost recovery
         efficiency from SCORPIOS. The lack of data also makes a thorough
         reconstruction of total costs incurred and billed for a site difficult.

         When EPA regional staff identify costs assigned to the wrong site, these costs
         should be corrected to ensure the correct site is billed. However, SCORPIOS
         does not track these corrections, and regions do not have a formal process to
         ensure staff correct these errors. Two examples illustrate this problem. The total
         costs at one site were approximately $8 million. These costs were coded
         incorrectly and should have been attributed to a different site. By the time the
         region realized the error, it was too late to bill the costs to the correct site because
         a settlement agreement for past costs had been finalized. At another site, the
         region recognized approximately $73,000 in laboratory costs incorrectly charged
         to the wrong site. The charges were excluded from the bill. However, regional
         staff did not know if the accounts had ever been corrected and billed to the correct
         site.

Cost Recovery Performance Measures Are Limited
         EPA has identified cost recovery performance measures in planning and policy
         documents, but has not implemented and tracked performance. EPA currently
         reports on the total number of sites (NPL and non-NPL) addressed by cost
         recovery, and reports a dollar value for private party commitments for clean-up
         and cost recovery. The reporting does not address dollars actually recovered
         compared to dollars potentially recoverable, or timeliness of billings. Until cost
         recovery performance measures are implemented, EPA will have no ongoing
         indication of how efficiently their cost recovery efforts are.

         We identified two efforts by EPA to define cost recovery performance measures.
         The first is EPA’s report, SUPERFUND: Building on the Past, Looking to the
         Future, April 22, 2004, which identified opportunities for program efficiencies.
         This report stated “…at sites with viable PRPs, the Agency should compare
         dollars actually recovered to dollars potentially recoverable. Without such a
         comparison, the program is relying upon an incomplete measure of success. As
         responsible parties continually press the Agency to write off past costs, EPA
         needs some way of ensuring that it is not compromising too much on past cost
         claims.”

         This report listed 102 recommendations in 6 key areas. One of the performance
         measure recommendations is Recommendation 57, which says that to improve


                                            9

         individual regional performance, the Office of Enforcement Compliance and
         Assurance and the lead region should evaluate current enforcement measures and
         develop additional regional site-specific measures that provide a more accurate
         picture of the program’s success and provide an incentive to improve
         performance. EPA appears to have stopped pursuing this recommendation, as
         stated in a June 2007 action plan: “…due to the dynamic and complexity of the
         cost recovery program, it was unable to develop a new cost recovery performance
         measure.”

         The second effort is the Superfund Program Implementation Manual FY 08/09 -
         Appendix C: Enforcement, which identifies two performance measures: (1) The
         total value of cost recovery settlements and judicial actions achieved, and past
         costs considered recoverable; and (2) the amount of money EPA has recovered
         from PRPs compared to the total amount achieved in cost recovery settlements
         and judicial actions. Regional staff we interviewed gave no indication these
         reporting measures exist.

         In recent years, EPA has collected regional data on billing timeliness, based on
         billing sites within 120 days of the billing anniversary date. The information
         reported includes the number of sites billed during the year and the number of
         these that met the timeliness performance measure. This measure addresses
         timeliness issues identified in past OIG reports. However, staff of the Office of
         the Chief Financial Officer stated that this measure would not be tracked in future
         years, but they are assessing the feasibility of adding this process to EPA’s
         Quality Assurance Program.

         As part of the final response, the Agency provided additional information on what
         is required from each region. First, as part of EPA’s FY 2008 Management
         Integrity/A-123 process, each Regional Administrator is required to develop a
         Quality Assurance (QA) work plan which includes Superfund cost recovery to
         ensure that: (1) Superfund costs presented for billing are appropriately reconciled
         to the Agency’s accounting system, and (2) unbilled Superfund costs are
         appropriately documented to substantiate why costs were not billed. Second, the
         Regional Administrators are required to document these reviews and certify their
         compliance in their annual assurance letter to the Administrator. Third, Servicing
         Finance Centers are required to meet the requirements of Resources Management
         Directive System 2550D, Chapter 14, “Superfund Accounts Receivable and
         Billings.”

Conclusions
         EPA does not have sufficient management control over the process for the
         recovery of Superfund expenses. Regions have pursued recovery of some EPA’s
         Superfund expenditures for most sites, and sites have generally paid the amount
         billed. However, based on EPA’s information systems, EPA has not recovered
         approximately $129 million out of $294 million in total costs, or 44 percent, of


                                          10 

         the total costs at these sites. Regions are using some billing practices that impede
         Superfund cost recovery and regions did not recover costs because they
         misunderstood procedures or did not generate bills. Enhancing guidance and
         tracking Superfund costs can help EPA avoid unnecessary financial losses
         through better recovery of its Superfund costs.

Recommendations
         We recommend the EPA Chief Financial Officer and the Assistant Administrator
         for Enforcement and Compliance Assurance work collaboratively to:

         1.	 Enhance cost recovery guidance for use by all regions. At minimum, this
             guidance should include:
             –	 Procedures for annually reviewing Superfund site costs for all sites where
                EPA is recovering or expects to recover costs, to ensure costs are
                adequately identified and documented. This guidance should include
                procedures for ensuring that costs are reviewed while involved staff are
                available and can remember cost details.
             –	 A standard definition of anniversary date for timeliness of billing.
             –	 A definition of the minimum costs required for billing.

         2.	 Implement mechanisms to:
             –	 Support calculation of site cost recovery efficiency - Track the resolution
                of each cost as determined in the annual billing process. Resolutions
                could include billed, not billed for a specified reason, and pending.
             – Track corrections – Identify incorrect costs until they are corrected.
             Both of these mechanisms could be implemented through enhancements to
             SCORPIOS.

         3. Implement performance measures to track cost recovery efficiency.

Agency Comments and OIG Evaluation

         The OIG made changes to the report based on the Agency’s comments where
         appropriate. Appendix A provides the full text of the Agency comments and OIG
         response.

         EPA concurred with all recommendations. We agree that the proposed actions,
         when implemented, will meet the intent of the recommendations.




                                          11 

                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                     POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                                 BENEFITS (in $000s)

                                                                                                                         Planned
     Rec.    Page                                                                                                       Completion   Claimed    Agreed To
     No.      No.                           Subject                          Status1         Action Official               Date      Amount      Amount

      1       11 	 Enhance cost recovery guidance for use by all               O          Chief Financial Officer,

                   regions. At minimum, this guidance should include:                     in cooperation with the 

                                                                                        Assistant Administrator for 

                     -	 Procedures for annually reviewing Superfund                     the Office of Enforcement

                       site costs for all sites where EPA is recovering or
                                                                                       and Compliance Assurance 

                       expects to recover costs, to ensure costs are
                       adequately identified and documented. This
                       guidance should include procedures for ensuring
                       that costs are reviewed while involved staff are
                       available and can remember cost details.
                     -	 A standard definition of anniversary date for
                       timeliness of billing.
                     -	 A definition of the minimum costs required for
                       billing.

      2       11 	 Implement mechanisms to:                                    O          Chief Financial Officer,

                    -	 Support calculation of site cost recovery                          in cooperation with the 

                       efficiency - Track the resolution of each cost as                Assistant Administrator for 

                       determined in the annual billing process.                        the Office of Enforcement

                       Resolutions could include billed, not billed for a              and Compliance Assurance 

                       specified reason, and pending.
                    -	 Track corrections – Identify incorrect costs until
                       they are corrected.
                     Both of these mechanisms could be implemented
                     through enhancements to SCORPIOS.

      3       11 	 Implement performance measures to track cost                O          Chief Financial Officer,

                   recovery efficiency.                                                   in cooperation with the 

                                                                                        Assistant Administrator for 

                                                                                        the Office of Enforcement

                                                                                       and Compliance Assurance 





1	    O = recommendation is open with agreed-to corrective actions pending
      C = recommendation is closed with all agreed-to actions completed
      U = recommendation is undecided with resolution efforts in progress




                                                                                   12 

                                                                                Appendix A

                  Agency Response to Draft Report
                        and OIG Evaluation




                                        March 7, 2008


MEMORANDUM

SUBJECT:      Response to Draft Evaluation Report:
              EPA Can Recover More Federal Superfund Money
              Assignment No. 2007-000491

FROM:         Lyons Gray/s/
              Chief Financial Officer
              Office of the Chief Financial Officer

              Granta Nakayama/s/
              Assistant Administrator
              Office of Enforcement and Compliance Assurance

TO:           Carolyn Cooper
              Director for Program Evaluation
              Office of Program Evaluation
              Office of Inspector General

        We appreciate the opportunity to respond to the preliminary findings and
recommendations addressed in the subject Office of Inspector General (OIG) draft Evaluation
Report. As well, we appreciate the opportunity to address the factual accuracy of the draft
report. In compliance with the extended OIG deadline of March 7, 2008, attached is the
consolidated Agency response.




                                                13 

       If you have any questions concerning our response to the draft Evaluation Report, please
contact Thomas DeHoff of OCFO’s Office of Financial Management at 202-564-4946.

Attachment

cc: 	   Catherine McCabe, OECA
        Lynn Buhl, OECA
        Marcia Mulkey, OECA
        Monica Gardner, OECA
        Barry Breen, OSWER
        Scott Sherman, OSWER
        James Woolford, OSWER
        Maryann Froehlich, OCFO
        Joshua Baylson, OCFO
        Lorna McAllister, OCFO
        Susan Dax, OCFO
        Krista Mainess, OCFO
        Milton Brown, OCFO
        Raffael Stein, OCFO
        David Bloom, OCFO
        ARAs
        Wade Najjum, OIG
        Elizabeth Grossman, OIG
        Mark Bialek, OIG
        Eileen McMahon, OIG
        Melissa Heist, OIG
        Stephen Nesbitt, OIG
        Bill Roderick, OIG
        Bill Ross, OSWER
        Gwendolyn Spriggs, OECA
        Vince Velez, OECA
        Johnsie Webster, OSWER




                                              14 

                               Agency Response to 

                            Draft Evaluation Report: 

                  EPA Can Recover More Federal Superfund Money 

                           Assignment No. 2007-000491 


                           Part 1 – Factual Accuracy of the Draft Report

Provided below are consolidated Agency comments, by section, regarding the subject draft.

General Comment

It is not always clear that the OIG’s use of certain terms in the draft agrees with our definition of
the terms. It would be helpful if the OIG would clarify or define the following terms, so that we
can properly address the issues cited in the final report when issued:

        Bill Site Costs         Collections                Incomplete Cost Recovery
        Total Site Costs        Recovered Costs            Oversight Bill/Billings
        Allocated Costs         Uncollected Costs          Past and Future Costs
OIG Note:
The page numbers reference in the Agency response refer to pages of the Draft Report, and may not be
accurate references to pages in this final report.


OIG Response
As stated in the Scope and Methodology section of the report, we analyzed cost recovery by obtaining
site total costs and costs recovered from two reports of EPA’s SCORPIOS information system. To clarify
this approach and the relation to the terms in question, we inserted the following text in the Scope and
Methodology section:
“For the purposes of this report, we use the following definitions:
Total costs – The total of all costs in the SCORPIOS Total Cost Report, including direct and indirect
costs.
Recovered costs – The cash receipts total from the SCORPIOS Site Collection Report.
Unrecovered costs – The difference between total costs and recovered costs.
Incomplete costs recovery – Recovered costs less than total costs.
Cost recovery efficiency – Recovered costs as a percentage of total costs.
Billing – The process used by EPA to recover all costs identified as total costs in SCORPIOS reports,
including settlement agreements and oversight costs.”

Additionally:
The term “Bill Site Cost” is explained by the “Billing” definition.
The term “Allocated Costs” is explained in a footnote on page 1.
The term “Uncollected Costs” is not used.
The term “Oversight Bill/Billings” is not defined, as this term is used only in reference to regional
responses to information requests.
The term “Past and Future Costs” indicates if the costs were incurred in the past or may be incurred in
the future.
Text in the report has been modified to use “cost recovery” instead of “collections” in all instances
referring to the recovery of site costs, except when referencing report titles.




                                                    15 

Chapter 1, Introduction, Pages 1-3:

Purpose (Page 1)

    •	 Please provide consistency in terminology (e.g., costs recovered or collections) in
       referring to cost recovery. The cost recovery process has two primary components: 1)
       Cost Recovery Program Enforcement (seeking recovery of costs incurred through billing)
       and 2) the debt management process of collecting the billed costs. The former is
       dependent on EPA’s program enforcement through seeking costs incurred in relation to
       the terms of the settlement agreement and enforcement strategy. The latter is dependent
       on external factors such as responsible parties’ ability/willingness to pay, etc.

OIG Response
See previous OIG Response text box. The following text has been changed to clarify “Billing” versus
“Cost Recovery”:
- Text added to At a Glance, first paragraph in What We Found and Chapter 2, top of page 5: “PRPs
   at these sites have generally paid what they have been billed.”
- Text modified at the bottom of page 6: “The unrecovered costs do not represent costs that were
   billed but not paid, as PRPs at these sites have generally paid what they have been billed.”


    •	 Please clearly define “Billing” (e.g., oversight and/or amounts resulting from settlement
       agreements). Settlement agreements can refer to two kinds of costs: Oversight costs
       (future costs) and past costs which are sum certain amounts resulting from settlement
       agreements for expenditures previously incurred. If the OIG’s focus is on oversight
       billing, this should be clearly stated or referenced and should be applied consistently
       throughout the document. This clarification is needed for a better understanding of the
       issues.

OIG Response
“Billing” has been included in the definitions in the Scope and Methodology section of the report.


Scope and Methodology (Pages 2 & 3)

    •	 Site files contain important and relevant site/case information (e.g., OECA’s Ten-Point
       Settlement document) that may not be available in SCORPIOS or other Agency
       information systems. We strongly encourage the OIG to include a review of the site files.

OIG Response
As indicated in the report, we did not review site files because we requested and received information
from knowledgeable staff in each region. These staff had access to the relevant site files as well as
additional knowledge and experience with the sites.




                                                    16 

Limitations (Page 3)

    •	 It is imperative to review both the site files and SCORPIOS to obtain past site cost
       comparison information on a full cost basis. We strongly recommend OIG discuss the
       indirect rate setting process, and historical indirect cost methodologies with OCFO’s
       Program Costing Staff for further clarification.

OIG Response
The Limitations section was included to address the fact that a historical reconstruction of total costs
based entirely on SCORPIOS data could lead to differences in total costs compared to amounts actually
billed at the time. We discussed indirect rate issues with OCFO staff during the course of the project. As
suggested, we also followed up with OCFO staff to clarify any issues.



Chapter 2, EPA Has Recovered About Half Its Superfund Costs, Pages 4-10:
Regions Generally Use Similar Billing Practices, But Expectations Impede Some Cost
Recovery (Pages 4 & 5)

    •	 Please add a reference to the Agency requirement to bill in accordance with the
       provisions of the settlement agreement.

OIG Response
The third bullet at the beginning of the section Regions Generally Use Similar Billing Practices, But
Exceptions Impede Some Cost Recovery indicates the costs are verified in accordance with the
provisions of the site’s settlement agreement. The following text was added to emphasize this point:
“The Agency is required to bill according to terms of the site’s settlement agreement.”


Regions Provide Multiple Reasons for Incomplete Cost Recovery (Pages 5, 6 & 7)
   •	 Please identify the specific office(s) responsible for providing general explanations as to
      why these costs were not billed.

OIG Response
These responses were based on written responses to OIG information requests and interviews with
regional staff. We will provide the Agency with a list of regions and staff associated with the responses in
a separate communication.


    •	 With regard to the second bullet, it is untrue that the referenced costs were not used in the
       rate calculation. The calculation of indirect cost rates includes document imaging costs.
       We ask that you revise this section accordingly.




                                                     17 

OIG Response
No change.
The statement is based on statements provided directly by regional staff, and is therefore correct.
Regional staff explicitly stated that the costs were charged as direct costs to a site, and should have been
considered indirect costs. The Region did not bill the site for the costs, and did not reverse the coding of
the charges to allow them to be used in the indirect rate calculation.


    •	 With regard to the fifth bullet, we are unclear as to why not receiving or processing
       invoices in time for billing is a valid explanation for “incomplete cost recovery”. Bills
       include billable site expenditures entered into IFMS that have been paid at the time the
       bill is prepared and issued. Invoices received and paid subsequently are included in the
       next billing cycle and will be included in the subsequent bill.

OIG Response
This explanation was provided by regional staff in response to an information request. The OIG did not
state this was a valid reason. In the section where OIG presents this reason, the OIG states: “Regional
staff also had other explanations for incomplete cost recovery. Some of these reflect a misunderstanding
of policies and procedures or a lack of oversight in the billing process. In several cases, our review
caused regions to become aware of oversight lapses on some site bills.” In addition, the OIG has made a
recommendation to improve guidance in this area.


    •   With regard to the seventh bullet, this bullet should be subsumed into the first bullet
        related to non-recovery pursuant to RCRA.

OIG Response
While both bullets refer to RCRA, these represent different conditions for separate sites. The first is
based on the incorrect assumption that remediation costs could be recovered through the RCRA permit.
The second represents a regional conclusion during the billing process that some costs were not
recoverable because they represented RCRA activities.


Cost Recovery Performance Measures Are Limited (Page 9)

    •	 With regard to the fourth paragraph concerning two performance measures identified in
       the Superfund Program Implementation Manual (SPIM) FY 08/09, we are in compliance
       with the first performance measure stating: “Total value of cost recovery settlements and
       judicial actions achieved, and past costs considered recoverable.” However, concerning
       the second measure which states: “The amount of money EPA has collected from PRPs
       compared to the total amount achieved in cost recovery settlements and judicial actions,”
       we could not locate this definition in the SPIM.

OIG Response
The second measure is the last entry in the Table on page C-5 of the Manual.


    •	 Please amend the last paragraph to include the following: As part of EPA’s FY 2008
       Management Integrity/A-123 process, each Regional Administrator is required to develop


                                                    18
       a Quality Assurance (QA) work plan which includes Superfund cost recovery to: 1)
       ensure Superfund costs presented for billing are appropriately reconciled to the Agency’s
       accounting system; and 2) ensure that unbilled Superfund costs are appropriately
       documented to substantiate why costs were not billed. In addition, the Regional
       Administrators are required to document these reviews and certify their compliance in
       their annual assurance letter to the Administrator. Servicing Finance Centers are required
       to meet the requirements of Resources Management Directive System 2550D, Chapter
       14, “Superfund Accounts Receivable and Billings.”

OIG Response
Text inserted as suggested.




                                               19 

                              Agency Response to 

                           Draft Evaluation Report: 

                 EPA Can Recover More Federal Superfund Money 

                          Assignment No. 2007-000491 


               Part 2 – Agency Comments on Draft Report Recommendations

Provided below are consolidated Agency comments on the draft’s recommendations.

OIG Recommendation #1

We recommend the EPA Assistant Administrator for Enforcement and Compliance Assurance,
the Chief Financial Officer, and the Assistant Administrator for Solid Waste and Emergency
Response, work collaboratively to:

1. 	Enhance cost recovery guidance for use by all regions. At minimum, this guidance
    should include:
     - Procedures for annually reviewing Superfund site costs for all sites where EPA is
        recovering or expects to recover costs, to ensure costs are adequately identified and
       documented. This guidance should include procedures for ensuring that costs are
       reviewed while involved staff are available and can remember cost details.
     - A standard definition of anniversary date for timeliness of billing.
     - A definition of the minimum costs required for billing.

Response to Recommendation #1

The Agency will issue new guidance for reviewing Superfund site costs where EPA is recovering
or expects to recover costs to ensure these costs are adequately identified/documented. This
guidance will include the requirement to identify costs that are not billed and to document the
rationale and explanation for not billing.

The Agency will provide training in upcoming FY 2008 Superfund cost recovery conferences,
meetings, and program evaluations with regional cost recovery staffs. This training will
reemphasize and reinforce existing policies, procedures, and guidance related to cost recovery
such as: 1) the Resource Management Directive System, 2550D, The Financial Management of
the Superfund Program; and 2) the Superfund Cost Recovery Procedures Manual.

The Agency currently reviews site costs at the time the costs are processed for site cost billing.
Even in cases where viable PRPs have not yet been identified, we have internal controls in place
for correctly recording these costs. These costs are not reviewed for billing purposes until such
time as a viable PRP is identified.


As part of EPA’s FY 2008 Management Integrity/A-123 process, each Regional Administrator is
required to develop a Quality Assurance (QA) work plan which includes Superfund cost


                                                 20 

recovery to: 1) ensure Superfund costs presented for billings are appropriately reconciled to the
Agency’s accounting system; and 2) ensure that unbilled Superfund costs are appropriately
documented to substantiate why costs were not billed. In addition, the Regional Administrators
are required to document these reviews and certify their compliance in their annual assurance
letter to the Administrator.

OCFO is proposing a limited study to review the financial operations (i.e., from assembling the
cost recovery bills to the collection process) and any related systems. The purpose is to: 1)
ensure processes are documented and that adequate controls are in place; 2) determine if the
existing business practices could be improved and; 3) determine if additional financial
performance metrics would be beneficial to the administration of the program.

OIG Recommendation #2

2. Implement mechanisms to:
   -	 Support calculation of site cost recovery efficiency – Track the resolution of each 

      cost as determined in the annual billing process. Resolutions could include billed, 

      not billed for a specified reason, and pending. 

   - Track corrections – Identify incorrect costs until they are corrected. 

   Both of these mechanisms could be implemented through enhancements to 

   SCORPIOS. 


Response to Recommendation #2

Under the new guidance, each region will be required to track and document any unbilled and/or
incorrect site costs (including the resolution of any such corrections).

Using the limited study referenced in the Response to Recommendation #1, the Agency will
analyze the billing trends against site costs incurred and establish a baseline for developing
appropriate standards for performance measurement.

Currently, the Agency maintains procedures for appropriate transaction adjustments to enable
corrections to site cost transactions. However, the Agency will explore possibilities to enhance
SCORPIOS and other information systems to develop a more global mechanism to support: 1)
calculating cost recovery efficiency and 2) tracking error corrections from the point errors are
identified until resolution.

OIG Recommendation #3

3. 	Implement performance measures to track cost recovery efficiency.

Response to Recommendation #3

Based on the trends and baselines developed for tracking cost recovery efficiency, the Agency
will work to implement appropriate performance measures.




                                                21 

                                                                              Appendix B

                                    Distribution

Office of the Administrator
Chief Financial Officer
Deputy Chief Financial Officer
Assistant Administrator, Office of Enforcement and Compliance Assurance
Principal Deputy Assistant Administrator, Office of Enforcement and Compliance Assurance
Assistant Administrator, Office of Solid Waste and Emergency Response
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Associate Assistant Administrator, Office of Solid Waste and Emergency Response
Agency Followup Official (the CFO)
Agency Followup Coordinator
Office of General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Followup Coordinator, Office of the Chief Financial Officer
Audit Followup Coordinator, Office of Enforcement and Compliance Assurance
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Deputy Inspector General




                                            22 

